               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Domestic Mail Manual Preparation
      and Acceptance Mail Instructions

                       Audit Report




                                              February 2, 2012

Report Number CI-AR-12-004
                                                                      February 2, 2012

                                            Domestic Mail Manual Preparation and
                                                    Acceptance Mail Instructions

                                                        Report Number CI-AR-12-004




IMPACT ON:                                  from 300,000 to a range of 4,600 to
Mail Entry, Payment Technology              10,000 by eliminating multiple permits
management, pricing management,
existing and new customers, and             WHAT THE OIG RECOMMENDED:
employees.                                  We recommended the vice president,
                                            Mail Entry and Payment Technology,
WHY THE OIG DID THE AUDIT:                  and the vice president, Pricing, combine
Our objective was to determine whether      all current mail preparation/acceptance
there are opportunities to simplify the     policies and remove all duplications. We
mail preparation/acceptance procedures      also recommended the vice president,
in the Domestic Mail Manual.                Mail Entry and Payment Technology,
                                            migrate to a one permit per customer
WHAT THE OIG FOUND:                         requirement and archive all denied,
In this time of decreasing mail volume,     canceled, or deleted permits
the U.S. Postal Service should make
every effort, given digital age             WHAT MANAGEMENT SAID:
alternatives, to simplify mail              Management agreed that preparation
preparation/acceptance and remove any       and acceptance guidance should be
unnecessary barriers to entry. Currently,   clearly defined, but not combined as
existing customers, new customers, and      they perform separate and distinct
employees must navigate over 2,300          functions and acceptance guidance is
pages of mail preparation/acceptance        proprietary. The Enterprise Payment
instructions and mailers must complete      (EP) will allow the option to pay postage
postage statements ranging from five to     through a single account at the option of
25 pages, depending on the class of         the mailer. Finally, the PostalOne!
mail.                                       system is operating as expected but
                                            deployment of the EP will allow for
In addition, there are approximately        archiving permits.
800,000 mailing permits in PostalOne!®
and approximately 61 percent are            AUDITORS’ COMMENTS:
inactive, denied, canceled, or deleted.     Management’s comments are
The remaining 39 percent are active.        responsive to the recommendations and
Our analysis shows that each mailer         the stated corrective actions should
has, on average, 66 mailing permits and     resolve the majority of the issues
the Postal Service has an opportunity to    identified in the report.
reduce the number of active permits
                                            Link to review the entire report
February 2, 2012

MEMORANDUM FOR:            PRITHA MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGY

                           MAURA ROBINSON
                           VICE PRESIDENT, PRICING

                                 E-Signed by Mark Duda
                              VERIFY authenticity with e-Sign




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Audit Report – Domestic Mail Manual Preparation and
                           Acceptance Mail Instructions
                           (Report Number CI-AR-12-004)

This report presents the results of our audit of the U.S. Postal Service’s Domestic Mail
Manual preparation and acceptance mail instructions (Project Number
11WG002CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, or me at 703-248-2100.

Attachments

cc: Ellis Burgoyne
    Paul Vogel
    Corporate Audit and Response Management
Domestic Mail Manual Preparation and Acceptance                                                                     CI-AR-12-004
 Mail Instructions




                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Over 2,300 Pages of Mail Preparation/Acceptance Policies ........................................... 2

PostalOne! Multiple Mailing Permit Process.................................................................... 3

Postage Statements ........................................................................................................ 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Number of Pages in the DMM ................................................................... 12

Appendix C: Multiple Mailing Permits ............................................................................ 13

Appendix D: Postage Statements ................................................................................. 14

Appendix E: Management’s Comments ........................................................................ 16
Domestic Mail Manual Preparation and Acceptance                                 CI-AR-12-004
 Mail Instructions



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Domestic Mail
Manual (DMM) preparation and acceptance mail instructions (Project Number
11WG002CI000). Our objective was to determine whether there are opportunities to
simplify the mail preparation/acceptance procedures in the DMM. See Appendix A for
additional information about this audit.

The Postal Service delivers over 170 billion 1 letters, flats, and parcels annually and the
DMM contains mailing preparation standards and pricing rates for customers. Included
in the DMM is the Price List, Notice 123 (Notice), which lists more than 10,000 domestic
and international prices the Postal Service charges for three primary product lines:
letters, flats, and parcels, along with additional services, such as insurance, delivery
confirmation, and certified mail. Supplementing the DMM are 170 pages of Quick
Service Guides (QSG) for customers. The QSG illustrates DMM requirements. In
addition, DM-109 2 serves as a guide for Postal Service employees to verify and accept
all categories of business mail and comply with the Postal Service’s internal financial
and procedural controls. DM-109 stresses the importance of providing mailers the most
up-to-date business processes and policies and predictable acceptance procedures in
order to provide the best customer experience. Also, the Business Mail Acceptance Job
Aids (Job Aids) and the 42 Customer Support Rulings (CSRs) issued between 2001 and
today provide additional instructions about mail preparation/acceptance standards.

Conclusion

In this time of decreasing mail volume, the Postal Service should make every effort to
simplify mail acceptance and remove any unnecessary barriers to entry. The
importance of simplification was highlighted by the Postal Service’s president and chief
marketing/sales officer. He said concerning a new and simpler shipping program that
“….when we make it simple to mail, our customer’s will do business with us.” However,
existing customers, new customers, and employees must currently navigate almost
2,300 pages between the DMM (over 1,700 pages), the QSG (170 pages), and DM-109
(200 pages); 95 pages of Job Aids; and 133 pages of CSRs. In fact, the number of
pages in the DMM has increased 286 percent since 1981. The Postal Service should
make all mail acceptance guidance (the DMM, QSG, DM-109, Job Aids, and CSRs)
more customer-centric. Instead of mail preparation/acceptance guidance being
contained in many different manuals, all guidance should be in one
preparation/acceptance guide, with two-way linking of associated screens and each
screen containing a discrete block of information. This would help avoid duplications
and enhance ease of use.




1
    United States Postal Service Annual Report 2010.
2
    Handbook DM-109, Business Mail Acceptance


                                                       1
Domestic Mail Manual Preparation and Acceptance                                                     CI-AR-12-004
 Mail Instructions


For the Postal Service to accept commercial mail, mailers are required to have a mailing
permit and pay an annual mailing fee at every location where they enter their mail. The
Postal Service tracks these mailing permits using PostalOne!®, a web-based system
that monitors and tracks all mailing permits assigned by the Postal Service. There are
approximately 800,000 mailing permits in PostalOne! and approximately 475,000
permits (61 percent) are inactive, denied, canceled, or deleted. 3 The remaining 300,000
plus permits (39 percent) are active.

Our analysis of the 20 largest mailers 4 with active permits in fiscal year (FY) 2010
indicates these companies have 1,317 permits. This is an average of 66 mailing permits
for each mailer, and we noted that some mailers have over 300 permits. The
requirement to have a permit at every location where a company enters mail is a barrier
to entry for new customers and a barrier to efficient operations for the Postal Service
and existing customers. FedEx Corporation (FedEx), United Parcel Service Inc. (UPS),
and Swiss Post allow their customers to have a single account (permit) regardless of
how many different locations they use to enter their mail. The Postal Service has an
opportunity, based on our analysis, to reduce the number of mailing permits from
300,000 to a range of approximately 4,600 to 10,000 by eliminating multiple permits for
each mailer and moving to a single account system.

In addition, the Postal Service requires different postage statements (paper or
electronic) for each class of mail. Mailers must complete a postage statement form
ranging from five to 25 pages, depending on the class of mail. Previous U.S. Postal
Service Office of Inspector General (OIG) audit reports noted that employees often did
not properly verify and complete postage statements due to inadequate understanding
of mailing standards.

Over 2,300 Pages of Mail Preparation/Acceptance Policies

The DMM contains all official prices and standards governing mailing services.
However, for employees and mailers using the Postal Service, the DMM is a document
of over 1,700 pages, which has increased with every update, except in1996 when the
manual decreased. The DMM has averaged an update every 6 months since 2007, and
since 1981 the number of pages has increased from 444 to 1,718, for an increase of
286 percent. See Appendix B for details. The DMM was originally a traditional paper
manual with running narratives or procedures with supporting data. Although the DMM
is now in an electronic environment, its volume has not been constrained and continues
to grow. The growth, in part, is due to not formatting the DMM to be more self-contained
with two-way linking of associated screens and each screen containing a discrete block
of information. This will help avoid duplications and enhance ease of use for all. The


3
  Inactive – Permit accounts which have not been used for 23 months and are scheduled to be canceled at the end of
       th
the 24 month. Denied – Permit accounts for which the Pricing and Classification Service Center determined the
mailer did not meet the application requirements and denied the application. Canceled – Permit accounts which have
been inactive for over 24 months. Deleted – Permit accounts which were opened in error and deleted within 35 days
or in canceled status for 13 months.
4
  Top 20 mailers, Target Marketing Magazine.



                                                        2
Domestic Mail Manual Preparation and Acceptance                                                        CI-AR-12-004
 Mail Instructions


DMM has hyperlinks to help navigate through the manual, as well as a Postal Wizard 5
to help calculate postage. We believe linking associated screens may eliminate
repetitive instructions. We reviewed the DMM and identified almost 200 pages of
duplicate instructions and other information. Management told us the DMM is designed
to be repetitive. Instead of duplicating instructions in multiple DMM sections, the Postal
Service could consolidate these sections.

In addition to the DMM and the 170 pages of QSG, Postal Service employees use the
DM-109 as an internal handbook with over 200 pages, which explains the mail
acceptance process to employees. The DM-109 comes with 95 pages of Job Aids to
explain the DMM to Postal Service employees. Employees must also rely on 133 pages
of CSRs that explain the application of mailing standards. CSRs include rulings
concerning definition of mail categories, mail preparation, and price eligibility.
Management created CSRs to help Postal Service employees and customers
understand and use the information in the DMM and to provide examples of specific
mailpieces and an analysis of how to apply mailing standards. Some of these
documents are only available to employees and not customers.

Mailers told the OIG they would like access to DM-109 and the Job Aids. They equate
not having this access to showing up for a test without being told the subject matter,
what to study, or how the test will be graded. Allowing public access may help prevent
mail preparation errors and foster better relationships between mailers and Postal
Service personnel. We believe the more informed customers are, the better able they
are to make decisions for themselves and the Postal Service.

According to management, there are portions of DM-109 that mailers should not have
access to because it is proprietary and “. . .should not be viewed as a source of
information that can or should be disclosed to the industry.” Although management
believes DM-109 is proprietary, the American Postal Workers Union’s website provides
a complete copy of the September 2006 DM-109.

The OIG identified 50 percent of DM-109 that is not proprietary and could be public.
Management acknowledged our identification of sections that could be posted publically
and does not “. . .think it would be effective to disassociate these sections from the
context of the complete handbook. Doing so may cause some level of confusion for the
reader if references are made to sections not provided or if there are instructions in
sections not provided that relate to the sections provided.”

PostalOne! Multiple Mailing Permit Process

In order for the Postal Service to accept commercial mail, mailers are required to have a
mailing permit and pay an annual mailing fee at every Post Office where they enter their
5
  The Postal Wizard provides a secure way to submit a postage statement online. The wizard automatically populates
the Permit Holder section of the postage statement based on the account number provided, guides the user through
the items needed to complete the statement, and verifies the provided information meets postal regulations. As part
of the process, postage is automatically calculated. Once the postage statement is complete, the electronic statement
may be submitted directly to the acceptance unit.


                                                         3
Domestic Mail Manual Preparation and Acceptance                                                   CI-AR-12-004
 Mail Instructions


commercial mail. A mailing permit is permission to use a certain postage payment
method for bulk and commercial mailings.

The PostalOne! system is a web-based system that monitors and tracks all mailing
permits the Postal Service assigns. The system provides an electronic link between a
customer’s mailing information and Postal Service’s business mail acceptance process.
We identified 6 approximately 800,000 mailing permits in PostalOne! during FY 2011,
with approximately 475,000 permits being inactive, denied, canceled or deleted in
PostalOne!. The inactive, denied, or canceled permits account for 61 percent of all
mailing permits in the system.

The remaining 39 percent (over 300,000 permits) are active in PostalOne!. Our analysis
of the 20 largest mailers in FY 2010 indicates that these companies have 1,317 permits.
This is an average of 66 mailing permits for each mailer, and some mailers have over
300 permits. Assuming each company in PostalOne! had 66 active mailing permits and
are now only required to have one active permit, the Postal Service could reduce the
number of mailing permits to 4,644. Using an average of 30 mailing permits for each
mailer would reduce the number of mailing permits to 10,216. This analysis
demonstrates that the Postal Service has an opportunity to reduce the number of
mailing permits from approximately 300,000 to a range of 4,644 to 10,216 by eliminating
multiple permits for one mailer. We did this analysis because management told us they
could not provide this information. See Appendix C for details.

In comparison, FedEx, UPS, and Swiss Post use a single customer account (permit)
regardless of how many different locations the customer uses to enter mail. Before
automation of the digital age, it was logical to require mailers to have a mailing permit
and pay an annual fee at every Post Office where they entered mail. Multiple permits
increase difficulty for existing and new customers to do business with the Postal
Service, unlike our competitors. Also, the data system for permit information is
supporting unused information and more information than actually needed, which can
lead to confusion for Postal Service employees.

According to management, the Postal Service is in the process of moving to one permit
per customer. The Enterprise Payment (EP) interim solution is supposed to provide
customers with a centralized payment account to pay for products and services. This
interim solution will “. . .utilize the present Centralized Automated Payable System
(CAPS) to accommodate all permit accounts. Using the CAPS finance number as the
national trust repository and the CAPS account number as the centralized payment
account number, the Postal Service will be able to utilize the present CAPS linking
functionality in the PostalOne! system to link all permits to centralized payment
accounts.” To date, the OIG has not been given any information the Postal Service has
communicated to its customers to notify them of the EP interim solution allowing them to
maintain a centralized payment account to pay for all products and services.


6
 We used the June 2011 Permit Imprint PostalOne! Balance Report Data Extract which contains all customer Permit
Imprint accounts.


                                                       4
Domestic Mail Manual Preparation and Acceptance                             CI-AR-12-004
 Mail Instructions


Postage Statements

Any customer claiming a mailing discount and all permit mailings must be accompanied
by a postage statement completed and signed by the mailer. A postage statement is a
Postal Service form that documents the number of pieces in the mailing, postage price
that should be paid, and customer information such as the permit number, address,
e-mail address, and telephone number. There are different postage statements for all
classes of mail (First-Class, Standard, and non-profit Standard Mail), as well as for
some subordinate rate categories and subclasses (such as Priority Mail, Media Mail,
Periodicals, and Package Services) along with each method of postage payment.
Customers must complete a postage statement form (paper or electronic) ranging from
five to 25 pages.

Originally, manual postage statements were a necessity and it was easier to use many
pages than to use the complete DMM. Automation of the digital age should replace all
paper like the paper postage statement substituted for the DMM. In fact, many large
commercial mailers have computer software to automatically prepare postage
statements, along with supporting documentation, so the burden of dealing with the
lengthy and complex postage statements may fall on the least sophisticated mailers and
new customers. According to management, the Postal Service is actively implementing
programs to simplify and streamline their product offerings.

We reviewed previous OIG audit reports to identify any issues with mail
preparation/acceptance and to determine whether or not the Postal Service can simplify
the mail preparation/acceptance process. Our previous audit report findings concluded
that employees did not properly verify the customer information and complete the Postal
Service portion of the postage statements. One of the reasons employees did not follow
the policies included inadequate understanding of the postage statement requirements.
See Appendix D for details.

Recommendations

We recommend the vice president, Mail Entry and Payment Technology, and the vice
president, Pricing:

1. Combine and remove all duplications in the Domestic Mail Manual, Quick Service
   Guides, Business Mail Acceptance, Job Aids, and Customer Support Rulings; and
   publish a new document available to all mailers online.

We recommend the vice president, Mail Entry and Payment Technology:

2. Migrate to a one permit per customer requirement using PostalOne!.

3. Archive all PostalOne! deleted or canceled permits.




                                                  5
Domestic Mail Manual Preparation and Acceptance                                CI-AR-12-004
 Mail Instructions



Management’s Comments

Management agreed that the DMM and other mail preparation manuals should clearly
and concisely define mailing standards and requirements and every effort should be
made to simplify mailing standards to facilitate the use of the mail. However,
management stated the Business Mail Acceptance and Job Aids should not be
combined with the DMM, because they have a separate and distinct function.

Management agreed that they should clearly define acceptance and verification
procedures and stated that, as they move to streamline acceptance procedures, they
will revise their documents to accurately reflect new processes. However, management
disagreed that these documents should be disseminated publically or included with
other public documents, including the DMM, stating these documents contain internal
operating procedures and instructions that do not reflect customer mail preparation or
qualification.

Management agreed to a one permit per customer requirement and stated that the EP
will provide a platform for paying postage through a single account at the option of the
mailer.

Management partially agreed to archive canceled or deleted permits at this time, stating
that if the PostalOne! system is operating as expected, but with the EP deployed, the
archiving of permits will be allowed. See Appendix E for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the majority of the issues identified in the report.
Management partially agreed with our recommendation to consolidate and make
available online mail preparation/acceptance guidance. Management has increased the
number of mailing standards because they believe to be responding to customer needs.
Their intent to streamline mail acceptance in the future will fulfill our recommendation.

The interim solution of EP will allow the Postal Service to migrate to a one permit per
customer requirement using PostalOne! and deployment of the EP will also allow the
archiving of permits.

The OIG considers all the recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  6
Domestic Mail Manual Preparation and Acceptance                                 CI-AR-12-004
 Mail Instructions



                            Appendix A: Additional Information

Background

The Postal Service is an independent agency of the U.S. government, responsible for
providing postal service in the U.S. It is one of the few government agencies explicitly
authorized by the U.S. Constitution.

In the middle of the 19th Century, the Post Office Department (POD) changed the rate
structure based on the number of sheets in a letter and the distance a letter traveled. In
1863, Congressional legislation created a mail rate for each half ounce weight of a
mailpiece. This was the first law to establish a uniform rate, regardless of the distance
traveled, thus providing universal service to customers regardless of their domestic
location. This law also created three classes of mail: First-Class Mail, which included
letters; Second-Class Mail for publications issued at regular periods; and Third-Class
Mail, which included all other mail.

The Postal Reorganization Act (the Act) signed by President Richard Nixon on
August 12, 1970, replaced the cabinet-level POD with the independent U.S. Postal
Service and established an independent Postal Rate Commission. The Act took effect
on July 1, 1971. At this time, the POD was reorganized as a quasi-independent
corporation of the federal government and acquired its present name. The Postal
Service is self-sufficient and has not directly received taxpayer-dollars since the early
1980s with a few minor exceptions.

On December 20, 2006, President George W. Bush signed into law the Postal
Accountability and Enhancement Act (Postal Act of 2006). The Postal Act of 2006
transformed the Postal Rate Commission into the Postal Regulatory Commission (PRC)
and assigned significant new responsibilities to the agency. It requires the PRC to
develop and maintain regulations for a modern system of rate regulation. The Postal Act
of 2006 also assigns new and continuing oversight responsibilities to the PRC, including
annual determinations of Postal Service compliance with applicable laws, development
of accounting practices and procedures for the Postal Service, review of the universal
service obligation, and assurance of transparency through periodic reports. New
enforcement tools include subpoena power, the authority to direct the Postal Service to
adjust rates and take other remedial actions, and the ability to levy fines in cases of
deliberate noncompliance with applicable postal laws.

The intent of the Postal Act of 2006 is to design a modern pricing and regulatory system
to increase predictability and reduce administrative burdens on customer, potential
consumers, and employees. This regulation enables the Postal Service to streamline
pricing and classification, retain excess revenue, compete fairly in the marketplace, and
respond effectively to economic conditions.




                                                  7
Domestic Mail Manual Preparation and Acceptance                                 CI-AR-12-004
 Mail Instructions


The DMM contains all official prices and standards governing domestic mailing services
and is mostly used by commercial mailers and Postal Service employees. The DMM
contains information for mailers and employees for services such as prices, postage
statements, and mailing permits. In addition, the QSG are a set of illustrations of DMM
requirements and are accessible within the DMM.

The Postal Service developed Handbook DM-109 to provide detailed guidelines for
business mail entry unit (BMEU) management and acceptance employees for the daily
operation of BMEUs and affiliated Detached Mail Units, with a focus on providing
consistent customer service to mailers. Handbook DM-109 serves as a comprehensive
source of information on the verification and acceptance of all categories of business
mail and a roadmap for effective compliance with the Postal Service’s internal financial
and procedural controls. Handbook DM-109 also stresses the importance of providing
mailers with the most up-to-date business processes and policies and predictable
acceptance procedures needed to provide mailers with the best customer experience.

The Postal Service developed the Job Aids to provide additional guidance to its
employees and provide further analysis of how mailing standards are applied.

The Postal Service created CSRs to help its employees and customers use the DMM.
The CSRs provide examples of specific mailpieces and an analysis of how mailing
standards are applied. CSRs are published when needed and as mailing standards
change.

Objective, Scope, and Methodology

Our objective was to determine whether there are opportunities to simplify the mail
acceptance procedures contained in the DMM. To accomplish our objective, we:

      Reviewed applicable policies and procedures and other pertinent documentation.

      Obtained public opinion using an external audit project page titled "Domestic Mail
       Manual Preparation and Acceptance Mail Instructions."

      Interviewed representatives of the mailing industry to determine any opportunities
       to simplify mail acceptance.

      Interviewed Postal Service officials to determine any opportunities to simplify mail
       acceptance and any additional guidance/policies for mail acceptance and
       verification.

      Reviewed the DMM and DM-109 to determine if there could be simplification of
       mail acceptance and preparation procedures.

      Reviewed the Job Aids which establish the flow of mail from preparation to
       acceptance.



                                                  8
Domestic Mail Manual Preparation and Acceptance                              CI-AR-12-004
 Mail Instructions



      Reviewed the QSG which illustrate DMM requirements.

      Reviewed DM-109 to identify opportunities to simplify mail acceptance
       procedures and compared it to the Job Aids used by Postal Service employees.

      Reviewed USPS.com to determine whether mail acceptance guidelines are
       understandable and easy for consumers to use.

      Reviewed the DMM and DM-109 and additional Postal Service policies relating to
       requirements of mailing permits for each postal location where mail is entered.

      Reviewed CSR related to mail acceptance.

      Reviewed PostalOne! to determine the number of active mailing permits.

      Reviewed current and older versions of the DMM to determine page and price
       volume data.

We conducted this performance audit from May 2011 through February 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on September 29, 2011, and
included their comments where appropriate.

We assessed the reliability of Postal Service mailing permit data by reviewing
supporting documentation provided by PostalOne!. We determined that the data were
sufficiently reliable for the purposes of this report.




                                                  9
     Domestic Mail Manual Preparation and Acceptance                             CI-AR-12-004
      Mail Instructions




     Prior Audit Coverage

                               Report           Final Report   Monetary
    Report Title               Number               Date        Impact                     Report Results
Bound Printed Matter       CRR-AR-08-005           5/9/2008       N/A       At six large Bound Printed Matter (BPM)
Workshare Discounts                                                         acceptance facilities, controls were in place to
                                                                            ensure mailers prepared BPM to workshare
                                                                            standards. However, some of the supporting
                                                                            documentation management used to develop
                                                                            BPM discounts was old, which could affect
                                                                            the reliability of the BPM workshare discount
                                                                            rates.
Fiscal Year 2007            FF-AR-08-131          3/19/2008    $2,292,350   Based on items reviewed at BMEUs, we
Financial Installation                                                      concluded that at sampled locations, financial
Audits – Business Mail                                                      transactions were reasonably and fairly
Entry Units                                                                 presented in the accounting records and,
                                                                            generally, the internal controls we examined
                                                                            were in place and effective. However, we
                                                                            determined that mailing personnel did not
                                                                            always follow the required acceptance,
                                                                            verification, and clearance procedures for
                                                                            mailings.
Fiscal Year 2008            FF-AR-09-052         12/22/2008    $1,558,424   Based on items reviewed at BMEUs, we
Financial Statement                                                         concluded that at sampled locations, financial
Audit – Business Mail                                                       transactions were reasonably and fairly
Entry Units                                                                 presented in the accounting records and,
                                                                            generally, the internal controls we examined
                                                                            were in place and effective. However, we
                                                                            determined that mailing personnel did not
                                                                            always follow the required acceptance,
                                                                            verification, and clearance procedures for
                                                                            mailings.



                                                                  10
     Domestic Mail Manual Preparation and Acceptance                            CI-AR-12-004
      Mail Instructions


Fiscal Year 2009            FF-AR-10-051         12/22/2009   $4,117,331   Based on items reviewed at BMEUs, we
Financial Statement                                                        concluded that, at sampled locations, financial
Audit – Business Mail                                                      transactions were reasonably and fairly
Entry Units                                                                presented in the accounting records and,
                                                                           generally, the internal controls we examined
                                                                           were in place and effective. However, we
                                                                           determined that mailing personnel did not
                                                                           always follow the required acceptance,
                                                                           verification, and clearance procedures for
                                                                           mailings.
Fiscal Year 2010            FF-AR-11-006          1/20/2011   $148,840     Based on items reviewed at BMEUs, we
Financial Statement                                                        concluded that, at sampled locations, financial
Audit – Business Mail                                                      transactions were reasonably and fairly
Entry Units                                                                presented in the accounting records and,
                                                                           generally, the internal controls we examined
                                                                           were in place and effective. However, we
                                                                           determined that mailing personnel did not
                                                                           always follow required acceptance,
                                                                           verification, and clearance procedures for
                                                                           mailings.




                                                                 11
Domestic Mail Manual Preparation and Acceptance                           CI-AR-12-004
 Mail Instructions




                        Appendix B: Number of Pages in the DMM

The DMM contains all official prices and standards governing mailing services.
However, for employees and mailers using the Postal Service, the DMM is a 1,700 plus
page document which has increased with every update, except in1996 when the
manual decreased. In fact, the DMM has averaged an update every 6 months since
2007 and, since 1981, the number of pages has increased from 444 to 1,718, for an
increase of 286 percent. The following is a breakdown of the number of pages of the
DMM since 1981:

                       Number of Pages in DMM by Year

                             Year                  Pages
                             1981                   444
                             1986                   480
                             1991                   833
                             1996                   754
                             2001                   963
                             2006                   1567
                             2011                   1718




                                                  12
Domestic Mail Manual Preparation and Acceptance                                CI-AR-12-004
 Mail Instructions



                           Appendix C: Multiple Mailing Permits

In order for the Postal Service to accept mail, mailers are required to have a mailing
permit and pay an annual mailing fee at every Post Office they use to enter their
commercial mail. A mailing permit is permission to use a certain postage payment
method for bulk and commercial mailings.
The PostalOne! system is a web-based system that monitors and tracks all mailing
permits assigned by the Postal Service. The system provides an electronic link between
a customer’s mailing information and the Postal Service’s business mail acceptance
and induction processes. During FY 2011, we identified approximately 800,000 permits
in PostalOne! Of this number, approximately 475,000 permits (60 percent) are either
inactive, denied, canceled, or deleted.

However, there are over 300,000 (39 percent) active permits in PostalOne! Our analysis
of the 20 largest mailers in FY 2010 indicates these companies have 1,317 permits.
This is an average of 66 mailing permits for each mailer and some mailers have over
300 permits. If the permits for the top 20 mailers were reduced from 1,304 to 20, that
would be a 98 percent reduction.

Assuming that each company in PostalOne! had 66 active mailing permits and was now
only required to have one active permit, the Postal Service could reduce the number of
mailing permits to 4,644. Using an average of 30 mailing permits for each mailer would
reduce the number of mailing permits to 10,216. This analysis demonstrates that the
Postal Service has an opportunity to reduce the number of mailing permits from
approximately 300,000 to a range of 4,644 to 10,216 by eliminating multiple permits for
one mailer.

According to management, the EP will address multiple mailing permits through a
system that provides a centralized payment account profile with expanded payment
options for all products/services and all customers. The EP is designed to
accommodate payment requests for any product system and be able to use a single
account for multiple Postal Service products and services.

Current CAPS management and processing will be changed in January 2012 to move
all local trust accounts into CAPS, enabling the use of permits across finance numbers.
This will provide the customers with the option to maintain a centralized payment
account to pay for products and services. The need is especially prevalent where
customers may hold multiple permit accounts at multiple locations.

To date, the OIG has not been provided any information from the Postal Service that
has been communicated to customers to notify them of the EP interim solution allowing
them to maintain a centralized payment account to pay for all products and services.




                                                  13
Domestic Mail Manual Preparation and Acceptance                             CI-AR-12-004
 Mail Instructions




                              Appendix D: Postage Statements

Any customer claiming a mailing discount and all permit mailings must be accompanied
by a postage statement (paper or electronic) completed and signed by the mailer. A
postage statement is a Postal Service form that documents the number of pieces in the
mailing, the postage price that should be paid, and customer information such as the
permit number, address, email address and phone number.

There are different postage statements for all classes of mail (First-Class, Standard,
and non-profit Standard Mail) as well as for some subordinate rate categories and
subclasses (such as Priority Mail, Media Mail, Periodicals, and Package Services) along
with each method of postage payment. Customers must complete a postage statement
form ranging from five to 25 pages. An example of page 1 of Postage Statement —
Standard Mail is below. This page illustrates the customer information, number of
pieces in the mailing, and postage price to be paid.




                                                  14
Domestic Mail Manual Preparation and Acceptance                                 CI-AR-12-004
 Mail Instructions



                         Appendix D: Postage Statements (cont.)

The postage statement lists 350 postage prices, including all of the different mail
automation discounts and drop shipment discounts.

We reviewed previous OIG audit reports to identify any issues with mail acceptance and
to determine whether the mail acceptance process can be simplified. Our previous
findings concluded that employees did not properly verify the customer information and
complete the Postal Service portion of the postage statements. One of the reasons
employees did not follow the policies included inadequate understanding of postage
statement requirements. An example of a page of postage statement prices is shown
below (this one is for Standard Mail), illustrating possible confusion that could occur
based on the number of sample prices for piece and weight of the mailpieces. On the
page below, there are 35 possible prices for a mailer to use based on the mailing. There
are an additional 315 prices on the other pages of the postage statement (not shown).




                                                  15
Domestic Mail Manual Preparation and Acceptance               CI-AR-12-004
 Mail Instructions


                          Appendix E: Management’s Comments




                                                  16
Domestic Mail Manual Preparation and Acceptance        CI-AR-12-004
 Mail Instructions




                                                  17
Domestic Mail Manual Preparation and Acceptance        CI-AR-12-004
 Mail Instructions




                                                  18
Domestic Mail Manual Preparation and Acceptance        CI-AR-12-004
 Mail Instructions




                                                  19
Domestic Mail Manual Preparation and Acceptance        CI-AR-12-004
 Mail Instructions




                                                  20
